Audit Report




OIG-10-002
RECOVERY ACT: Treasury Should Ensure That Assessments of
Staffing, Qualifications, and Training Needs Are Based on
Reliable Survey Data
October 13, 2009




Office of
Inspector General
Department of the Treasury
Contents


Audit Report................................................................................................. 1

Background ..................................................................................................... 3

Findings and Recommendations ......................................................................... 5

    Survey Results Are Unreliable ...................................................................... 5

    Treasury Is Basing Critical Management Judgments
    on Unreliable Survey Results ........................................................................ 10

    Recommendations ....................................................................................... 11

Appendices

    Appendix 1: Management’s Response............................................................ 13
    Appendix 2: Major Contributors to This Report ............................................... 15
    Appendix 3: Report Distribution .................................................................... 16

Abbreviations

    Board                    Recovery Accountability and Transparency Board
    BPD                      Bureau of the Public Debt
    CDFI Fund                Community Development Financial Institutions Fund
    CO                       contracting officer
    COTR                     contracting officer’s technical representative
    DAWIA                    Defense Acquisition Workforce Improvement Act
    FAC-COTR                 Federal Acquisition Certification for Contracting Officers
                             Technical Representative
    FMS                      Financial Management Service
    OFAS                     Office of the Fiscal Assistant Secretary
    OPE                      Office of the Procurement Executive
    Recovery Act             American Recovery and Reinvestment Act of 2009
    SAO                      Senior Accountable Official




                         Treasury Should Ensure That Assessments of Staffing, Qualifications,               Page i
                         and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                               Audit
OIG
The Department of the Treasury
                                                                                               Report
Office of Inspector General




                        October 13, 2009

                        Daniel Tangherlini, Assistant Secretary for Management, Chief
                           Financial Officer, and Chief Performance Officer

                        This report presents findings from our ongoing audit oversight of
                        the Department of the Treasury’s Non-Internal Revenue Service
                        (IRS) programs and use of funds authorized by the American
                        Recovery and Reinvestment Act of 2009 (Recovery Act). 1 As
                        required by the Recovery Act, the Recovery Accountability and
                        Transparency Board (Board) conducted a review to determine the
                        adequacy of staffing levels, qualifications, and training of personnel
                        responsible for Recovery Act contracts and grants. In order to carry
                        out its review, the Board asked the Treasury Office of Inspector
                        General (OIG), along with the other affected Inspectors General, to
                        work with their respective Departments to complete a survey
                        developed by the Board for this purpose. Our objective for this
                        report was to determine whether those surveys completed by
                        Treasury staff adequately assessed the staffing levels,
                        qualifications, and training of personnel responsible for overseeing
                        contracts, grants, and payments awarded with Recovery Act
                        funds.

                        In brief, we found that survey responses were not reliable for
                        assessing the adequacy of staffing levels, qualifications, or training
                        of Treasury’s Recovery Act workforce. We identified survey
                        responses that were incomplete, inconsistent, and incorrect. In
                        addition, bureau and program offices were unable to fully support
                        their responses. Furthermore, reviews of these surveys by
                        individuals on behalf of the Senior Accountable Official (SAO) were
                        not adequate to identify the incompleteness, inconsistencies, and
                        inaccuracies we found during our audit.

1
    Pub. L. No. 111-5, 123 Stat. 115 (Feb. 17, 2009).

                        Treasury Should Ensure That Assessments of Staffing, Qualifications,       Page 1
                        and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
As a result, the surveys, in our opinion, do not provide a reliable
assessment of staffing, qualifications, or training of Treasury’s non-
IRS workforce responsible for overseeing Recovery Act funds
awarded through contracts, grants, and payments in lieu of tax
credits.

We also found that Treasury used the unreliable survey results to
make a critical management judgment that the contracting
workforce dedicated to Recovery Act procurements was adequate.
Two respondents to the contracting survey stated that their
Recovery Act acquisitions were impacting other workloads. While
we believe it necessary for Treasury to periodically and
comprehensively assess staffing level as well as staffing
qualifications and training, we caution Treasury against using the
results of this survey effort for this purpose.

We recommended that management comprehensively assess the
adequacy of its staffing, qualifications, and training of personnel
overseeing Recovery Act funds to include the payment in lieu if tax
credit programs and the effect Recovery Act workload has on other
activities. We recommended management take actions on issues
identified based on its assessment. We also recommended that
management ensure policies and procedures are in place to provide
reliable and complete data in anticipation of future workforce
assessments. Management agreed with our recommendations and
will re-administer the surveys to provide information on the full
scope of Recovery Act programs. In addition, management has
added two high level managers to Treasury’s Recovery Act Team
who are developing quality control mechanisms to ensure reliability
and completeness of data. Management’s response is provided in
appendix 1.

Based on the Board’s timeframe and direction, we conducted
fieldwork for this project from August through September 2009.
We reviewed applicable guidance provided by the Board for
administering the survey; met with bureau and program office staff
responsible for completing the surveys and provided clarification of
instructions and survey questions; interviewed key Treasury
personnel responsible for administering and reviewing completed


Treasury Should Ensure That Assessments of Staffing, Qualifications,   Page 2
and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
                      surveys to obtain an understanding of Treasury’s process for
                      ensuring data completeness and reasonableness; performed
                      validation procedures of survey data by requesting and obtaining
                      supporting documentation; and, to assess the adequacy of
                      Treasury’s review, reviewed survey responses for completeness
                      and reasonableness.

                      We prepared this report in accordance with generally accepted
                      government auditing standards for performance audits. Those
                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis for
                      our findings and conclusions based on our audit objectives. We
                      believe that the evidence obtained provides a reasonable basis for
                      our findings and conclusions based on our audit objectives.

Background
                      The Recovery Act provided funds to many federal agencies for
                      programs intended to assist segments of the economy affected by
                      the current downturn. As part of this funding, agencies received
                      additional authority for awarding tax credits, grants, contracts, and
                      other payments. Treasury is responsible for overseeing an
                      estimated $22 billion of additional funding for contracts, grants,
                      payments, and tax credits for non-IRS activities. 2

                      The Recovery Act established the Recovery Accountability and
                      Transparency Board (Board) to provide oversight of funds expended
                      or obligated from appropriations made under the Recovery Act
                      (covered funds). 3 As prescribed by the act, the Board consists of a
                      chairman appointed by the President and 12 inspectors general
                      from federal agencies that expend or obligate Recovery Act
                      Funds. 4 The Board’s functions include reviewing whether there are
                      sufficient qualified acquisition and grant personnel overseeing

2
  These tax credits are those awarded through the Community Financial Institutions Fund New Markets
Tax Credit program. Other tax credits provided for by the Recovery Act are administered by IRS with
oversight by the Treasury Inspector General for Tax Administration.
3
  Pub. L. No. 111-5, § 1521.
4
  Publ. L. No. 111-5, § 1522. The 12 inspectors general are from the Departments of Agriculture,
Commerce, Defense, Education, Energy, Health and Human Services, Homeland Security, the Interior,
Justice, the Treasury, and Transportation and from IRS.

                      Treasury Should Ensure That Assessments of Staffing, Qualifications,    Page 3
                      and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
covered funds and whether personnel whose duties involve
acquisitions or grants made with covered funds receive adequate
training.

To carry out these functions, the Board developed a survey
instrument to obtain a benchmark of the current federal acquisition
and grants workforce and to capture projected workforce staffing
and qualifications data over the next year. The following seven
surveys were developed, each focused on a specific segment of
the acquisitions and grants workforce:

    •   Contracting Officers Survey
    •   Contracting Officer’s Technical Representative and
        Contracting Officer’s Representative Survey (COTR Survey)
    •   Contract Program or Project Managers Survey
    •   Contracting Support Personnel Survey
    •   Grants Officers Survey
    •   Grant Program or Project Manager Survey
    •   Grants Specialists/Support Personnel Survey

The Board asked inspectors general to assist their agencies in
administering the surveys. To that end, our office asked Treasury’s
SAO for the Recovery Act to direct the surveys to the appropriate
program offices and non-IRS bureaus awarding Recovery Act funds
through contracts, grants, tax credits, and payments in lieu of tax
credits. The SAO for Treasury is the Assistant Secretary for
Management, Chief Financial Officer, and Chief Performance
Officer.

In addition, we provided the following instructions along with the
surveys:

•   Respondents are to answer all questions unless directed to skip
    a question based on a response to a previous question.
•   Narrative responses and comments are to provide as much
    information as necessary to respond fully to the question.
•   Acronyms specific to the agency or department are to be
    identified.




Treasury Should Ensure That Assessments of Staffing, Qualifications,   Page 4
and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
            •   Any responses containing references to agency-specific
                regulations or policy are to be linked to referenced documents
                or include a Web address.
            •   The SAO or designee is to review survey results for
                completeness and reasonableness of data before providing them
                the Office of Inspector General.

            As stated in the instructions, agencies were not asked to verify the
            survey results.

            The bureaus and offices that completed the surveys were the
            Community Development Financial Institutions Fund (CDFI Fund),
            the Procurement Services Division and the Office of Procurement
            Executive (OPE) within the Departmental Offices, the Financial
            Management Service (FMS), and the Bureau of the Public Debt
            (BPD).

            Our office received the completed surveys by the deadline
            established by the Board, September 4, 2009. In turn, those
            surveys were transmitted, for compilation by the Board, to the
            Department of Commerce OIG on September 11, 2009, the date
            required by the Board.


Findings and Recommendations

Finding 1   Survey Results Are Unreliable

            We concluded that the survey responses Treasury provided to the
            Board were unreliable for assessing the staffing levels,
            qualifications, and training of Treasury’s Recovery Act workforce.
            Our review found that surveys completed by Treasury did not
            cover staff overseeing approximately 88 percent of Treasury’s
            estimated $22 billion of Recovery Act funds. We also identified
            surveys that were incomplete in other ways because respondents
            failed to follow the instructions provided. In addition, bureaus and
            program offices were unable to fully support responses provided by
            their staff. As a result of these findings, we concluded that
            Treasury’s process for ensuring the completeness and
            reasonableness of survey responses was inadequate.


            Treasury Should Ensure That Assessments of Staffing, Qualifications,   Page 5
            and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
Surveys Were Not Completed by the Office of the Fiscal Assistant
Secretary

We found that Treasury’s surveys did not provide the Board with a
complete picture of Treasury’s workforce responsible for
overseeing a significant portion Treasury’s Recovery Act funds.
Specifically, Treasury did not require the Office of the Fiscal
Assistant Secretary (OFAS) to complete the grants manager or
project manager survey. This office, however, is responsible for
administering nearly $20 billion in Recovery Act funds for grants in
lieu of tax credits for specified energy property and low income
housing. These amounts represent approximately 88 percent of the
$22 billion of Recovery Act funds that Treasury is responsible for
administering. OFAS did not complete the surveys because it does
not consider these programs to be grant programs. For purposes of
the Board’s survey, that is to assess the levels, qualifications, and
training of personnel responsible for administering Recovery Act
funds, we believe that OFAS’s position was wrong.

Survey Responses Were Incomplete

We found that CDFI Fund submitted incomplete surveys for the
Contract Program or Project Manager and the Grants Specialists
and Support Personnel. In both cases, required fields were left
blank.

In the Contract Program or Project Manager Survey, questions
about the estimated cost of training, the number of certified
managers who met the continuous learning requirements, and the
additional agency requirements applicable to contract managers
were not answered. Furthermore, a narrative explanation, as
required, as to why these questions were left unanswered was not
provided. Because of these missing responses, there was
insufficient information to assess the qualifications of current CDFI
Fund contract managers.

In the Grants Specialists and Support Personnel survey, incomplete
responses were provided with respect to both the adequacy of



Treasury Should Ensure That Assessments of Staffing, Qualifications,   Page 6
and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
staffing levels as well as the qualifications and training of grant
specialists and support personnel.

With regard to staffing, CDFI Fund indicated that four individuals
worked on Recovery Act grants from April through June 2009.
However, no response was provided as to the percentage of time
these individuals spent on Recovery Act financial assistance award
activities, the sufficiency of the number of grant specialist and
support personnel working on Recovery Act grants, or the impact
that using such personnel on Recovery Act grants has on the CDFI
Fund’s non-Recovery Act grant activities. Further, no response was
provided as to the number of contractors the CDFI Fund had
obtained or planned to obtain to support its financial assistance
workforce. It should also be noted that required narrative was not
provided to indicate why these questions were left unanswered.
Without this information, there is no way to assess the adequacy
of CDFI Fund’s staffing levels for grant specialist and support
personnel.

Concerning the qualifications and training of grant specialists and
support personnel, no response was provided as to whether
personnel are required to be certified and how many are certified.
Similarly, there was no response provided as to whether the
agency had additional requirements for continuous learning,
experience, education, and training and, if so, whether all grant and
support personnel working on Recovery Act grants are required to
meet those requirements. Without this information, one cannot
adequately assess the qualifications and training requirements of
current CDFI Fund grant specialists and support personnel.

Survey Responses Were Incorrect

We identified surveys with incorrect answers. The following are
examples of incorrect responses that we found during our review:

    •   In the narrative portion of the Grants Officer Survey, CDFI
        Fund indicated that the survey that was not applicable
        because CDFI Fund has grant program managers and project
        managers, rather than grant officers. Nevertheless, CDFI
        Fund completed the Grants Officer Survey anyway. As a


Treasury Should Ensure That Assessments of Staffing, Qualifications,   Page 7
and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
        result, the responses duplicated those in CDFI Fund’s Grants
        Manager or Project Manager Survey. Moreover, the CDFI
        Fund’s Grants Officer Survey had a review note on it
        questioning the accuracy of the total number of program
        managers working at CDFI Fund.

    •   In its Contracting Officers Survey and COTR Survey, FMS
        incorrectly answered questions concerning its deadline for
        implementing the Federal Acquisition Certification in
        Contracting (FAC-C) or the Defense Acquisition Workforce
        Improvement Act (DAIWA) certification for Contracting
        Officers and the Federal Acquisition Certification for
        Contracting Officers Technical Representatives (COTR). FMS
        did not provide a date for the deadline and instead made
        reference to its Career Handbook. However, FMS did not
        include links or a Web address for its Career Handbook, as
        required in the survey instructions. We did find the
        information about the deadline in the Career Handbook but
        without the link or Web address, users of the survey would
        not have this information.

    •   In its COTR Survey, FMS responded incorrectly to a question
        about how many of its four COTRs had met or were
        expected to meet FAC-COTR continuous learning
        requirements. FMS answered the question “zero.” Our
        follow-up with the FMS staff who completed the survey
        revealed that she misunderstood the question, and in fact
        three COTRs had completed the required training based on
        FMS’s documentation.

Because of the incorrect answers provided the surveys did not
provide reliable information to assess the adequacy of the staffing,
qualifications, and training of Treasury’s Recovery Act workforce.

Inconsistent Survey Responses

We noted inconsistencies between answers within certain of the
surveys. Following are two examples of this condition.




Treasury Should Ensure That Assessments of Staffing, Qualifications,   Page 8
and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
    •   In its COTR Survey, CDFI Fund responded to one question
        that one COTR would be working on Recovery Act contracts
        from January 1, 2010, through June 30, 2010. However, in
        response to another question, CDFI Fund said that there
        were two COTRs that had or would receive FAC-COTR
        certification.

    •   In the Contracting Support Personnel Survey, OPE responded
        to one question that it lacked a sufficient number of support
        personnel to work on Recovery Act contracts. In a lengthy
        narrative to another narrative question, OPE identified a
        number of functions impacted by Recovery Act workload.
        However, its responses to other questions indicates that OPE
        has adequate resources for Recovery Act work.

Unsupported Survey Responses

We performed procedures to validate the data supporting survey
responses and assess the sufficiency of responses both
quantitatively and qualitatively. In doing so, we found that for four
bureaus and program offices, documentation supporting their
answers to the surveys was incomplete. FMS, on the other hand,
maintained sufficient documentation.

Completeness and Reasonableness

To understand Treasury’s process for ensuring completeness and
reasonableness of survey responses, we interviewed the Treasury
official responsible for ensuring the right Treasury bureaus and
offices completed the survey as well as for reviewing the results of
those surveys for completeness and reasonableness. To determine
reasonableness, the official indicated that the survey responses
were reviewed to ensure that they were accurate and made sense.

We concluded that this review was not effective because it did not
detect the errors noted by our review.




Treasury Should Ensure That Assessments of Staffing, Qualifications,   Page 9
and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
Finding 2   Treasury Is Basing Critical Management Judgments on
            Unreliable Survey Results

            Treasury officials used the survey results to assess the adequacy
            of staffing levels of personnel responsible for Recovery Act
            contracting activities. An internal memorandum prepared for the
            SAO stated, among other things: “Survey results for contracting-
            related staffing indicate that, while the Recovery Act has increased
            Treasury’s contracting workload, additional staffing is not required
            for execution of remaining acquisitions under the Act. Bureaus
            have accommodated the increase primarily by reprioritizing non Act
            procurements and working additional hours to meet requirements.
            The initial impact has now been mitigated through early execution
            of the most immediate procurements and overall maturity of the
            program.”

            We believe that the survey responses do not support this
            assessment. Not withstanding all the problems noted above with
            the survey responses as well as the absence of a survey completed
            by OFAS (the office responsible for administering 88 percent of
            Treasury non-IRS Recovery Act funds), there were concerns raised
            by two survey respondents as to the adequacy of staffing.

            BPD responded in its Contracting Officers Survey that Recovery
            Act acquisitions require additional time to process, making it more
            difficult to balance non-Recovery Act work. Furthermore, BPD
            indicated that this could become a challenge if its workload
            increased with the approach of the end of the fiscal year. In its
            Contracting Support Personnel Survey, BPD stated that personnel
            do not have adequate time to spend on non-Recovery Act actions.
            As a result, according to BPD, work is not completed as quickly
            and work quality may be affected.

            OPE responded in its Contracting Support Personnel survey that
            Departmental Offices lacks sufficient personnel to work on
            Recovery Act activities. In its answer to a question about the
            effect of Recovery Act activities on the contracting process for
            non-Recovery Act acquisitions, OPE noted that to accommodate
            Recovery Act requirements, other workloads were reprioritized. In
            this regard, OPE’s Evaluation and Monitoring program was the

            Treasury Should Ensure That Assessments of Staffing, Qualifications,   Page 10
            and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
most affected in that, among other things, scheduled assessments
of bureau acquisitions could not be conducted as required by the
Office of Management and Budget; follow-up could not be
performed on corrective action plans; and transaction reviews for
high-dollar noncompetitive actions may take longer to complete. As
stated in Finding 1, OPE’s survey responses were inconsistent as
to whether staffing was adequate.

It should be noted that the memorandum transmitting survey
results to the SAO did not include an assessment of the adequacy
of the grant workforce level nor comment on the qualifications and
training of the contract or grant workforce.

Recommendations

We recommend that the Senior Accountable Official do the
following:

    1. Comprehensively assess the adequacy of staffing levels,
       qualifications, and training of personnel responsible for
       Recovery Act contracts and grants, including the payments
       in lieu of tax credits programs. The assessment should take
       into consideration the effect the Recovery Act workload has
       on other mission critical activities. Based on the results of
       this comprehensive assessment, take actions to address the
       issues identified.

        Management Response

        Management concurred with our recommendation and will
        re-administer the surveys that will provide information on the
        full scope of Recovery Act programs. Our office will provide
        advice to the affected bureau and program offices as
        appropriate.

        OIG Comment

        Management’s action meets the intent of our
        recommendation.



Treasury Should Ensure That Assessments of Staffing, Qualifications,   Page 11
and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
    2. In anticipation that there may be future assessments by the
       Board or others regarding the staffing, qualifications, and
       training of Recovery Act personnel, ensure that adequate
       policies and procedures are in place to provide reliable and
       complete data.

        Management Response

        Management concurred with our recommendation and has
        augmented the Treasury Recovery Act Team with two high
        level managers who are developing quality control
        mechanisms to ensure reliable and complete data.

        OIG Comment

        Management’s action meets the intent of our
        recommendation.

                                  ******

We appreciate the courtesies and cooperation provided to our staff
during this audit. If you wish to discuss this report, you may
contact me at (202) 927-5400 or Donna Joseph, Audit Director, at
(202) 927-5784.



Marla A. Freedman
Assistant Inspector General for Audits




Treasury Should Ensure That Assessments of Staffing, Qualifications,   Page 12
and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
Appendix 1
Management’s Response




Treasury Should Ensure That Assessments of Staffing, Qualifications,   Page 13
and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
Appendix 1
Management’s Response




Treasury Should Ensure That Assessments of Staffing, Qualifications,   Page 14
and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
Appendix 2
Major Contributors To This Report




Donna Joseph, Director
Cynthia Milanez, Audit Manager
Daniel Domke, Audit Manager
Erica Wardley, Auditor in Charge
Asha Mede, Auditor in Charge
Chereeka Straker, Auditor in Charge
Maurice George, Auditor
Rashmi Smith, Referencer




Treasury Should Ensure That Assessments of Staffing, Qualifications,   Page 15
and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
Appendix 3
Report Distribution




Department of the Treasury

Deputy Secretary
Assistant Secretary for Management and Chief Financial Officer
Acting Fiscal Assistant Secretary
Deputy Chief Financial Officer
Senior Procurement Executive
Director, Office of Strategic Planning and Performance
Management
Director, Community Development Financial Institutions Fund
Office of Tax Policy
Treasury Inspector General for Tax Administration

Office of Management and Budget

OIG Budget Examiner

Department of Commerce

Office of Inspector General




Treasury Should Ensure That Assessments of Staffing, Qualifications,   Page 16
and Training Needs Are Based on Reliable Survey Data (OIG-10-002)
